No.

3fn tbe ~upreme q[:ourt of tbe Mniteb ~tateg
FRANKLIN RAFAEL LOPEZ TOALA,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.l(h), I certify that the Petitioner's Writ
of Certiorari was prepared using Century 12 point typeface and contains 7938 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33. l(d). This certificate was prepared in reliance on the word count function of the
word processing system used to prepare this document. I am a member of the Supreme
Court of the United States and also appointed CJA counsel and the foregoing is true
and correct.
Executed on August 20 th , 2020.
rian P. Battaglia
Counsel of Record

BLEAKLEY BAVOL DENMAN

15316 N. Florida Avenue
Tampa, FL 33613

& GRACE

(813) 221-3759
bbattaglia@bbdglaw.com
eservice@bbdglaw.com
Counsel for Petitioner

2

